APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Duguid v. Facebook,
Inc., No. 17-15320 (Mar. 11, 2019).............. App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, Duguid v. Facebook,
Inc., No. 17-15320 (Aug. 22, 2019) ............ App-21
Appendix C
Order Granting Motion to Dismiss,
United States District Court for the
Northern District of California, Duguid v.
Facebook, Inc., No. 15-cv-00985-JST
(Mar. 24, 2016)........................................... App-23
Appendix D
Order Granting Motion to Dismiss with
Prejudice, United States District Court
for the Northern District of California,
Duguid v. Facebook, Inc., No. 15-cv00985-JST (Feb. 16, 2017)......................... App-39
Appendix E
Relevant Statutory Provision.................... App-53
47 U.S.C. § 227 .................................... App-53

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-15320
________________
NOAH DUGUID, individually and on behalf of himself
and all others similarly situated,
v.

Plaintiff-Appellant,

FACEBOOK, INC.,
and

Defendant-Appellee,

UNITED STATES OF AMERICA,
Intervenor-Appellee.
________________
Argued and Submitted: Mar. 11, 2019
Filed: June 13, 2019
________________
Before: J. Clifford Wallace, Eugene E. Siler, * and
M. Margaret McKeown, Circuit Judges.
________________
McKEOWN, Circuit Judge:
Almost thirty years ago, in the age of fax
machines and dial-up internet, Congress took aim at
* The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

App-2
unsolicited robocalls by enacting the Telephone
Consumer Protection Act of 1991 (“TCPA”), 47 U.S.C.
§ 227. In the decades since, the TCPA has weathered
the digital revolution with few amendments. With
important exceptions, the TCPA forbids calls placed
using an automated telephone dialing system
(“ATDS”), commonly referred to as an autodialer.
Noah Duguid claims that Facebook used an ATDS
to alert users, as a security precaution, when their
account was accessed from an unrecognized device or
browser. For unknown reasons, Duguid received the
messages despite not being a Facebook customer or
user and never consenting to such alerts. His repeated
attempts to terminate the alerts were unsuccessful.
Facebook challenges the adequacy of Duguid’s
TCPA allegations and, alternatively, claims that the
statute violates the First Amendment. We conclude
that Duguid’s allegations are sufficient to withstand
Facebook’s motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6).
As to the constitutional question, we join the
Fourth Circuit and hold that a 2015 amendment to the
TCPA, which excepts calls “made solely to collect a
debt owed to or guaranteed by the United States,” is
content-based and incompatible with the First
Amendment. Am. Ass’n of Political Consultants, Inc.
v. FCC, 923 F.3d 159 (4th Cir. 2019) (hereinafter,
AAPC). But rather than toss out the entire TCPA—a
longstanding and otherwise constitutional guardian of
consumer privacy—we sever the newly appended
“debt-collection exception” as an unconstitutional
restriction on speech.

App-3
BACKGROUND

I.

The Telephone Consumer Protection Act

In what was thought to be telemarketing’s
heyday, Congress enacted the TCPA to “protect the
privacy interests of residential telephone subscribers
by placing restrictions on unsolicited, automated
telephone calls.” S. Rep. No. 102-178, at 1 (1991). With
certain exceptions, the TCPA bans calls (including
text messages) placed using an ATDS. 47 U.S.C.
§ 227(b)(1); see Satterfield v. Simon & Schuster, Inc.,
569 F.3d 946, 954 (9th Cir. 2009) (“[A] text message is
a ‘call’ within the TCPA.”).
Since its enactment, the definition of an ATDS
has remained the same: “equipment which has the
capacity—(A) to store or produce telephone numbers
to be called, using a random or sequential number
generator; and (B) to dial such numbers.” 47 U.S.C.
§ 227(a)(1). In contrast, the scope of the prohibition
section has evolved. In 2014, when Duguid received
messages from Facebook, the statute excepted two
types of calls: those “made for emergency purposes”
and those “made with the prior express consent of the
called party.” Id. § 227(b)(1)(A) (2010). Effective
November 2, 2015, Congress added a third exception
for calls “made solely to collect a debt owed to or
guaranteed by the United States.” Bipartisan Budget
Act of 2015, Pub. L. No. 114-74, § 301(a)(1)(A), 129
Stat. 584, 588; 47 U.S.C. § 227(b)(1)(A)(iii). It is this
“debt-collection exception” that Facebook contends is
unconstitutional.
Two court rulings during this appeal have shifted
the TCPA playing field. First, in ACA International v.
Federal Communications Commission, the D.C.

App-4
Circuit overturned aspects of several Federal
Communications
Commission
(“FCC”) rulings
construing the ATDS definition. 885 F.3d 687 (D.C.
Cir. 2018). Shortly thereafter, in Marks v. Crunch San
Diego, LLC, we construed ACA International to wipe
the definitional slate clean, so we “beg[an] anew to
consider the definition of ATDS under the TCPA.” 904
F.3d 1041, 1049-50 (9th Cir. 2018). To clarify any
ambiguity, we rearticulated the definition of an ATDS:
“equipment which has the capacity—(1) to store
numbers to be called or (2) to produce numbers to be
called, using a random or sequential number
generator—and to dial such numbers automatically.”
Id. at 1053. That definition governs this appeal.
II. Duguid’s Allegations 1
Duguid is not a Facebook customer and has never
consented to Facebook contacting his cell phone.
Nonetheless, beginning in approximately January
2014, Facebook began sending Duguid sporadic text
messages. The messages alerted Duguid that an
unrecognized browser was attempting to access his
(nonexistent) Facebook account. Each message
followed a common template: “Your Facebook account
was accessed [by/from] <browser> at <time>. Log in
for more info.”
Flummoxed, and unable to “log in for more info,”
Duguid responded to the messages by typing “Off” and
“All off.” Facebook immediately assured Duguid that
1 At this stage, we treat Duguid’s factual allegations as true
and construe them in the light most favorable to Duguid. See
Northstar Fin. Advisors Inc. v. Schwab Invs., 779 F.3d 1036, 1042
(9th Cir. 2015), as amended (Apr. 28, 2015).

App-5
“Facebook texts are now off,” but the messages kept
coming. Duguid also requested via email that
Facebook stop sending him messages, but he received
similar, automated email responses that failed to
resolve the issue. The text messages continued until
at least October 2014.
Duguid sued Facebook for violating the TCPA,
alleging that Facebook sent the text messages using
an ATDS. Specifically, he alleges that Facebook
established the automated login notification process
as an extra security feature whenever a Facebook
account is accessed from a new device. According to
Duguid, Facebook maintained a database of phone
numbers and—using a template and coding that
automatically supplied the browser information and
time of access—programmed its equipment to send
automated messages to those numbers each time a
new device accessed the associated account. Somehow,
Facebook acquired Duguid’s number and (as it did
with the numbers provided by its users) stored and
sent automated messages to that number.
Duguid sued on behalf of two putative classes:
people who received a message from Facebook without
providing Facebook their cell phone number; and
people who notified Facebook that they did not wish to
receive messages but later received at least one
message. Each putative class reaches back four years
from April 22, 2016, when Duguid filed the amended
complaint. Duguid seeks statutory damages for each
message, plus declaratory relief and an injunction
prohibiting similar TCPA violations in the future.
The district court concluded that Duguid
inadequately alleged that Facebook sent its messages

App-6
using an ATDS—a prerequisite for TCPA liability.
After providing leave to amend, the district court
dismissed the amended complaint with prejudice.
ANALYSIS

Faithful to our unflagging duty to assess
constitutional standing, we hold that Duguid
adequately alleges a concrete injury in fact. See Van
Patten v. Vertical Fitness Grp., LLC, 847 F.3d 1037,
1042-43 (9th Cir. 2017) (citing Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016)).
I.

Sufficiency of the Allegations

Facebook invites us to avoid the First Amendment
challenge by affirming on the ground that Duguid
inadequately alleges a TCPA violation. According to
Facebook, the equipment Duguid characterizes in the
amended complaint is not an ATDS. We conclude that
Marks forecloses that position.
By definition, an ATDS must have the capacity “to
store or produce telephone numbers to be called, using
a random or sequential number generator.” 47 U.S.C.
§ 227(a)(1)(A). In Marks, we clarified that the
adverbial phrase “using a random or sequential
number generator” modifies only the verb “to
produce,” and not the preceding verb, “to store.” 904
F.3d at 1052. In other words, an ATDS need not be
able to use a random or sequential generator to store
numbers—it suffices to merely have the capacity to
“store numbers to be called” and “to dial such numbers
automatically.” 2 Id. at 1053.
2 An alternative to the capacity to store numbers is the capacity
“to produce numbers to be called, using a random or sequential
number generator.” Marks, 904 F.3d at 1053; see 47 U.S.C.

App-7
Duguid’s nonconclusory allegations plausibly
suggest that Facebook’s equipment falls within this
definition. He alleges that Facebook maintains a
database of phone numbers and explains how
Facebook programs its equipment to automatically
generate messages to those stored numbers. The
amended complaint explains in detail how Facebook
automates even the aspects of the messages that
appear personalized. Those factual allegations,
accepted as true and construed in the light most
favorable to Duguid, sufficiently plead that Facebook
sent Duguid messages using “equipment which has
the capacity . . . to store numbers to be called . . . and
to dial such numbers.” 3 Id.
Facebook responds that Marks cannot possibly
mean what it says, lest the TCPA be understood to
cover ubiquitous devices and commonplace consumer
communications. In particular, Facebook cautions,
such an expansive reading of Marks would capture
smartphones because they can store numbers and,
using built-in automated response technology, dial
those numbers automatically. And if smartphones are
ATDSs, then using them to place a call—even without
using the automated dialing functionality—violates
the TCPA. See In re Rules & Regulations
§ 227(a)(1)(A). Because Duguid adequately alleges the capacity to
store numbers, we do not address whether he adequately alleges
the capacity to produce.
Our conclusion that Duguid’s detailed factual allegations are
sufficient says nothing about whether that level of detail is
necessary to plead ATDS use. We also note that Facebook does
not raise, so we do not consider, the requirement that an ATDS
have the capacity to “dial . . . numbers automatically.” Marks,
904 F.3d at 1053 (emphasis added).
3

App-8
Implementing the Telephone Consumer Protection Act
of 1991, 30 FCC Rcd. 7961, 7975 ¶ 19 n.70 (July 10,
2015); ACA Int’l, 885 F.3d at 704. “It cannot be the
case,” the D.C. Circuit has remarked, “that every
uninvited communication from a smartphone
infringes federal law, and that nearly every American
is a TCPA-violator-in-waiting, if not a violator-infact.” ACA Int’l, 885 F.3d at 698.
As a textual anchor for narrowing Marks,
Facebook points to the statutory requirement
(repeated in Marks) that an ATDS store numbers “to
be called.” 47 U.S.C. § 227(a)(1)(A). The ATDS at issue
in Marks was designed to send promotional text
messages to a list of stored numbers—a proactive
advertising campaign. See 904 F.3d at 1048. Facebook
differentiates its equipment because it stores numbers
“to be called” only reflexively—as a preprogrammed
response to external stimuli outside of Facebook’s
control. It urges us to cabin Marks as inapplicable to
such purely “responsive messages,” because numbers
stored to send such messages were not stored “to be
called.” So construed, Facebook argues, Marks avoids
the outcome of deeming smartphones a type of ATDS.
We cannot square this construction with Marks or
the TCPA. Marks’s gloss on the statutory text provides
no basis to exclude equipment that stores numbers “to
be called” only reflexively. Indeed, the statute
suggests otherwise: “to be called” need not be the only
purpose for storing numbers—the equipment need
only have the “capacity” to store numbers to be called.
47 U.S.C. § 227(a)(1). The amended complaint does
not so much as suggest that Facebook’s equipment
could (or did) store numbers for any other reason.

App-9
Importantly, rejecting the active-reflexive
distinction does not render “to be called” superfluous.
Phone numbers are frequently stored for purposes
other than “to be called”: shops and restaurants store
numbers to identify customers in their loyalty
programs; electronic phonebooks store numbers for
public access; data mining companies store and sell
numbers; and software for customer relations
management stores numbers to help businesses
manage their clientele. So “to be called” has meaning
without inferring a silent distinction between active
and reflexive calls.
Finally, Facebook’s argument that any ATDS
definition should avoid implicating smartphones
provides no reason to adopt the proposed activereflexive distinction. Even if Facebook’s premise has
merit, the quintessential purpose for which
smartphone users store numbers is “to be called”
proactively. In other words, excluding equipment that
stores numbers “to be called” only reflexively would
not avoid capturing smartphones.
Our reading supports the TCPA’s animating
purpose—protecting
privacy
by
restricting
unsolicited, automated telephone calls. See S. Rep.
102-178, at 1. The messages Duguid received were
automated, unsolicited, and unwanted. We are
unpersuaded by Facebook’s strained reading of Marks
and the TCPA.
Facebook advances a separate argument that it
was entitled to dismissal on the pleadings because the
TCPA excepts “call[s] made for emergency purposes.”
47 U.S.C. § 227(b)(1)(A). The FCC has construed this
exception broadly, to include “calls made necessary in

App-10
any situation affecting the health and safety of
consumers.” 47 C.F.R. § 64.1200(f)(4). But Duguid
alleges that he is not a Facebook customer and has
advised Facebook of that fact repeatedly and through
various means of communication. Accepting these
allegations as true, Duguid did not have a Facebook
account, so his account could not have faced a security
issue, and Facebook’s messages fall outside even the
broad construction the FCC has afforded the
emergency exception. See In re Rules & Regulations
Implementing the Telephone Consumer Protection Act
of 1991, 31 F.C.C. Rcd. 9054, 9063 ¶ 21 n.76 (Aug. 4,
2016) (“[P]urported emergency calls cannot be
targeted to just any person. These calls must be about
a bona fide emergency that is relevant to the called
party.”).
Finally, it bears reiterating that we are
considering the amended complaint at the Rule
12(b)(6) dismissal stage. Thus, we review the
sufficiency of the allegations, not their accuracy or the
intricate workings of Facebook’s equipment,
algorithms, or notification system. Developing those
factual details remains for the parties and the district
court on remand.
II. First Amendment
As a threshold matter, we confirm that Facebook
has standing to challenge the constitutionality of the
post-amendment TCPA. Although the TCPA
violations Duguid alleges predate the debt-collection
exception, which took effect in 2015, he also seeks
damages on behalf of a putative class for violations
that occurred in part in 2016, as well as forwardlooking injunctive relief based on the post-amendment

App-11
TCPA. See Landgraf v. USI Film Prods., 511 U.S. 244,
273 (1994) (“[A]pplication of new statutes passed after
the events in suit is unquestionably proper in many
situations,” such as “[w]hen the intervening statute
authorizes or affects the propriety of prospective
relief.”). The class allegations and request for
injunctive relief vest Facebook with a sufficient
personal stake in the post-amendment TCPA to
challenge its constitutionality.
A. The Post-Amendment TCPA Is ContentBased
Turning to the merits, we first evaluate whether
the TCPA is content-neutral and subject to
intermediate scrutiny or content-based and subject to
strict scrutiny. We have repeatedly affirmed that the
pre-amendment TCPA was content-neutral and
consistent with the First Amendment. Gomez v.
Campbell-Ewald Co., 768 F.3d 871, 876 (9th Cir.
2014), aff’d, 136 S. Ct. 663 (2016); Moser v. Fed.
Commc’ns Comm’n, 46 F.3d 970, 975 (9th Cir. 1995).
The statute satisfied intermediate scrutiny because it
was narrowly tailored to advance the “government’s
significant interest in residential privacy” and left
open “ample alternative channels of communication.”
Moser, 46 F.3d at 974; see also Gomez, 768 F.3d at 87677 (recognizing that the government’s interest in
privacy extends beyond the household, and rejecting
the argument that the statute is inadequately tailored
insofar as it applies to text messages).
The debt-collection exception, which adds a
purposive element, changes the framework. The
TCPA now favors speech “solely to collect a debt owed
to or guaranteed by the United States.” 47 U.S.C.

App-12
§ 227(b)(1)(A)(iii). Because this section “target[s]
speech based on its communicative content,” the
exception is content-based and subject to strict
scrutiny. Reed v. Town of Gilbert, Ariz., 135 S. Ct.
2218, 2226 (2015); see AAPC, 923 F.3d at 165-67.
The government’s argument that the debtcollection exception is relationship-based as opposed
to content-based is foreclosed by Reed. The “crucial
first step in the content-neutrality analysis” is
“determining whether the law is content neutral on its
face.” Reed, 135 S. Ct. at 2228. If it is not, the law “is
subject to strict scrutiny regardless of the
government’s
benign
motive,
content-neutral
justification, or lack of ‘animus toward the ideas
contained’ in the regulated speech.” Id. (quoting
Cincinnati v. Discovery Network, Inc., 507 U.S. 410,
429 (1993)). For that reason, we “consider[] whether a
law is content neutral on its face before turning to the
law’s justification or purpose.” Id.
It is obvious from the text that the debt-collection
exception’s applicability turns entirely on the content
of the communication—i.e., whether it is “solely to
collect a debt owed to or guaranteed by the United
States.” 47 U.S.C. § 227(b)(1)(A)(iii). The identity and
relationship of the caller are irrelevant. And the
government’s “innocuous justification”—permitting
third-party debt collectors to place calls on the
government’s behalf using the same means as the
government itself can use—“cannot transform a
facially content-based law into one that is content
neutral.” Reed, 135 S. Ct. at 2228. We therefore
conclude that the exception is content-based, without

App-13
resorting to Reed’s second, intent-focused inquiry. See
id. at 2227-28.
Our sister circuits’ post-Reed decisions are
consistent with our reading. There is, of course, the
Fourth Circuit’s decision in AAPC, decided shortly
after argument in our case, in which the court reached
the same conclusion regarding the debt-collection
provision. 923 F.3d at 161 (“[W]e agree with the
Plaintiffs that the debt-collection exemption
contravenes the Free Speech Clause. In agreement
with the Government, however, we are satisfied to
sever the flawed exemption from the automated call
ban.”). Earlier, the Fourth Circuit also deemed
content-based South Carolina’s TCPA analogue
because the statute applies only to robocalls “of a
political nature” or made “for the purpose of making
an unsolicited consumer telephone call.” Cahaly v.
Larosa, 796 F.3d 399, 402 (4th Cir. 2015) (quoting S.C.
Code § 16-17-446(A)). “Applying Reed’s first step,” the
Fourth Circuit reasoned, “South Carolina’s antirobocall statute is content based because it makes
content distinctions on its face.” Id. at 405. The Eighth
Circuit likewise deemed content-based an exception to
Minnesota’s TCPA analogue for messages sent to
solicit voluntary donations. Gresham v. Swanson, 866
F.3d 853, 854-55 (8th Cir. 2017) (citing Minn. Stat.
§ 325E.27(a)), cert. denied, 138 S. Ct. 682 (2018).
By contrast, the Seventh Circuit upheld Indiana’s
TCPA analogue, which exempted calls for “(1)
Messages from school districts to students, parents, or
employees[;] (2) Messages to subscribers with whom
the caller has a current business or personal
relationship[; and] (3) Messages advising employees of

App-14
work schedules.” Patriotic Veterans, Inc. v. Zoeller,
845 F.3d 303, 304 (7th Cir.) (quoting Ind. Code § 24-514-5(a)), cert. denied sub nom. Patriotic Veterans, Inc.
v. Hill, 137 S. Ct. 2321 (2017). The first and second
exceptions to the Indiana statute are based on the
relationship between caller and recipient, and the
plaintiff did not invoke the third exception. See id. at
305 (suggesting in dicta that the third exception, were
it invoked, is content-based). Accordingly, the Seventh
Circuit upheld the Indiana statute as content-neutral
and consistent with the First Amendment. Id. at 306
(“Indiana does not discriminate by content—the
statute determines who may be called, not what
message may be conveyed . . . .”).
The text of the TCPA makes clear that the
availability of the exception depends exclusively on
the purpose and content of the call. The relationship
between caller and recipient, though not coincidental,
does not bear on the exception’s applicability. Reed
forbids us from imputing motives or sensibilities to
Congress where, as here, its plain language is clear,
and clearly content-based. 135 S. Ct. at 2228.
B. The Post-Amendment TCPA Fails Strict
Scrutiny
Because it is content-based, the TCPA’s debtcollection provision is “presumptively unconstitutional
and may be justified only if the government proves that
[it is] narrowly tailored to serve compelling state
interests.” 4 Reed, 135 S. Ct. at 2226. More specifically,
4 We reject the government’s unsupported assertion that
Facebook’s security messages are subject to intermediate
scrutiny because they constitute commercial speech. See Hunt v.
City of Los Angeles, 638 F.3d 703, 715 (9th Cir. 2011)

App-15
the government (and Duguid, who adopts the
government’s
constitutional
arguments)
must
demonstrate that the TCPA’s “differentiation between
[robocalls to collect a debt owed to or guaranteed by
the
United
States]
and
other
types
of
[robocalls] . . . furthers a compelling government
interest and is narrowly tailored to that end.” Id. at
2231. Importantly, we focus our analysis on the
content-based differentiation—the debt-collection
exception—not on the TCPA overall. See id. at 223132; AAPC, 923 F.3d at 167 (“[I]n order to survive strict
scrutiny, the Government must show that the debtcollection exemption has been narrowly tailored to
further a compelling governmental interest.”
(emphasis added)).
The government seriously advocates only one
interest: “the protection of personal and residential
privacy.” This articulation is a head-scratcher,
because robocalls to collect government debt are just
as invasive of privacy rights as robocalls placed for
other purposes. On that point, congressional findings
corroborate common sense (not to mention practical
experience): “Evidence compiled by the Congress
indicates that residential telephone subscribers
consider automated or prerecorded telephone calls,
regardless of the content or the initiator of the
message, to be a nuisance and an invasion of privacy.”
(“Commercial speech is ‘defined as speech that does no more than
propose a commercial transaction.’ . . . Where the facts present a
close question, ‘strong support’ that the speech should be
characterized as commercial speech is found where the speech is
an advertisement, the speech refers to a particular product, and
the speaker has an economic motivation.” (internal citations
omitted)).

App-16
Telephone Consumer Protection Act of 1991, Pub. L.
No. 102-243, § 2(10), 105 Stat. 2394, 2394 (emphasis
added). Permitting callers to collect government debt
thus hinders—not furthers—the government’s
asserted interest. Because it “subverts the privacy
protections underlying the” TCPA and “deviates from
the purpose of the automated call ban,” the debtcollection exception is fatally underinclusive. AAPC,
923 F.3d at 168.
Contrasting the privacy implications of the
TCPA’s longstanding consent and emergency
exceptions highlights this tailoring defect. Robocalls
placed pursuant to consent “are less intrusive than
other automated calls” because “consent generally
diminishes any expectation of privacy.” Id. at 169. So
too are emergency robocalls, because they are
infrequent, “protect[] the safety and welfare of
Americans,” and serve the public interest. Id. at 170.
By contrast, an unconsented, non-emergency robocall
thoroughly invades personal and residential privacy,
whether it is placed to collect government debt or for
some other purpose. The universe of otherwise illegal
calls that the debt-collection exception permits—
which one senator estimated to be in the tens of
millions—has an outsized, detrimental impact on
residential and personal privacy. See In re Rules &
Regulations Implementing the Telephone Consumer
Protection Act of 1991, 31 F.C.C. Rcd. 9074, 9078 ¶ 9
& n.36 (Aug. 11, 2016). This incongruency underscores
that the exception impedes, rather than furthers, the
statute’s purpose.
To evade this largely self-evident conclusion, the
government would have us focus our analysis on the

App-17
TCPA writ large rather than the debt-collection
exception. It argues that the post-amendment statute,
viewed holistically, remains narrowly tailored to
protect personal and household privacy. This glossover approach is at odds with Reed, which directs that
the tailoring inquiry focus on the content-based
differentiation—here, the debt-collection exception.
See 135 S. Ct. at 2231-32; see also AAPC, 923 F.3d at
167.
The government’s expanded lens also fails in its
objective.
The
post-amendment
TCPA
is
underinclusive, in that it excepts automated calls
placed pursuant to the debt-collection exception,
which are—all else being equal—every bit as invasive
of residential and personal privacy as any other
automated call. See Pub. L. No. 102-243, § 2(10), 105
Stat. at 2394. It is also overinclusive because the
government—in its own words—could have
accomplished the same goal in a content-neutral
manner by basing the exception “on the called party’s
preexisting relationship with the federal government.”
See Reed, 135 S. Ct. at 2232. And the TCPA’s
potentially expansive application to everyday
consumer communications—a small fraction of which
implicate residential and personal privacy—further
emphasizes its over-inclusiveness. See ACA Int’l, 885
F.3d at 697-99.
The government halfheartedly suggests an
alternative interest: protecting the public fisc. 5 We
5 The President’s annual budget proposal for fiscal year 2015—
the wellspring of the debt-collection exception—projected that
the amendment would yield $12 million per year over the ensuing
decade. See Fiscal Year 2015 President’s Budget, at 185,

App-18
credit this argument for candor: debt collection is
unescapably the exception’s main purpose—hence its
inefficacy in protecting privacy. See Williams-Yulee v.
Fla. Bar, 135 S. Ct. 1656, 1668 (2015)
(“[U]nderinclusiveness can raise doubts about
whether the government is in fact pursuing the
interest it invokes . . . .” (internal quotation marks
and citation omitted)). But even assuming that
protecting the public fisc is a compelling interest, the
debt-collection exception is not the least restrictive
means to achieve it. For one, Congress could protect
the public fisc in a content-neutral way by phrasing
the exception in terms of the relationship rather than
content. See Reed, 135 S. Ct. at 2232 (noting the
“ample content-neutral options” available to serve the
same government interest). The government could
also obtain consent from its debtors or place the calls
itself. See AAPC, 923 F.3d at 169 n.10 (noting these
possibilities); Campbell-Ewald Co. v. Gomez, 136 S.
Ct. 663, 672 (2016), as revised (Feb. 9, 2016) (“The
United States and its agencies, it is undisputed, are
not subject to the TCPA’s prohibitions because no
statute lifts their immunity.”). We hold that the debtcollection exception is content-based and insufficiently
tailored to advance the government’s interests in
protecting privacy or the public fisc.

available at https://www.govinfo.gov/content/pkg/BUDGET2015-BUD/pdf/BUDGET-2015-BUD.pdf; Fiscal Year 2015
President’s Budget: Analytical Perspectives, at 123, available at
https://www.govinfo.gov/content/pkg/BUDGET-2015PER/pdf/BUDGET-2015-PER.pdf.

App-19
C. The
Debt-Collection
Severable

Exception

Is

Though incompatible with the First Amendment,
the debt-collection exception is severable from the
TCPA. See AAPC, 923 F.3d at 171. Congressional
intent is the touchstone of severability analysis. See
Regan v. Time, Inc., 468 U.S. 641, 653 (1984).
Congress simplifies our inquiry when, as here, it
speaks directly to severability: “If any provision of this
chapter [containing the TCPA] . . . is held invalid, the
remainder . . . shall not be affected thereby.” 47 U.S.C.
§ 608. While not dispositive, this unambiguous
language endorsing severability relieves us of a
counterfactual inquiry as to congressional intent and
creates a presumption of severability absent “strong
evidence that Congress intended otherwise.” Alaska
Airlines, Inc. v. Brock, 480 U.S. 678, 686 (1987).
History reaffirms what Congress said. The TCPA
has been “fully operative” for more than two decades.
Free Enter. Fund v. Pub. Co. Accounting Oversight
Bd., 561 U.S. 477, 509 (2010). Then, with little fanfare,
Congress appended the comparatively modest debtcollection exception as a small portion of the 2015
budget bill. The newly enacted exception did not
suddenly and silently become so integral to the TCPA
that the statute could not function without it. See
Gresham, 866 F.3d at 855 (severing a newly enacted,
content-based exception to Minnesota’s robocalling
statute because “[t]he balance of the statute preexisted the amendment, and we presume that the
Minnesota legislature would have retained the preexisting statute”); cf. Rappa v. New Castle County, 18
F.3d 1043, 1073 (3d Cir. 1994) (“[T]he proper remedy

App-20
for content discrimination generally cannot be to sever
the statute so that it restricts more speech than it did
before—at least absent quite specific evidence of a
legislative preference for elimination of the exception.”
(emphases added)).
Excising the debt-collection exception preserves
the fundamental purpose of the TCPA and leaves us
with the same content-neutral TCPA that we
upheld—in a manner consistent with Reed—in Moser
and Gomez.
CONCLUSION

Duguid adequately alleges Facebook utilized an
ATDS, and the additional elements of a TCPA claim
are not at issue in this appeal. We reject Facebook’s
challenge that the TCPA as a whole is facially
unconstitutional, but we sever the debt-collection
exception as violative of the First Amendment. We
reverse the dismissal of Duguid’s amended complaint
and remand for further proceedings.
REVERSED AND REMANDED.

App-21
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-15320
________________
NOAH DUGUID, individually and on behalf of himself
and all others similarly situated,
v.

Plaintiff-Appellant,

FACEBOOK, INC.,
and

Defendant-Appellee,

UNITED STATES OF AMERICA,
Intervenor-Appellee.
________________
Filed: Aug. 22, 2019
________________
Before: J. Clifford Wallace, Eugene E. Siler, * and
M. Margaret McKeown, Circuit Judges.
________________
ORDER
________________
The panel unanimously votes to deny the petition
for panel rehearing.
* The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

App-22
Judge McKeown votes to deny the petition for
rehearing en banc, and Judges Wallace and Siler so
recommend. The full court has been advised of the
petition for rehearing and rehearing en banc and no
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are denied.

App-23
Appendix C
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________
No. 15-cv-00985-JST
________________
NOAH DUGUID,
v.

Plaintiff,

FACEBOOK, INC.,
Defendant.
________________
Filed: Mar. 24, 2016
________________
ORDER GRANTING MOTION TO DISMISS
________________
Before the Court is Defendant Facebook, Inc.’s
Motion to Dismiss Plaintiff’s Complaint Pursuant to
Federal Rule of Civil Procedure 12(b)(6). ECF No. 24.
Plaintiff Noah Duguid opposes the motion. ECF No.
30. For the reasons set forth below, the Court will
grant the motion to dismiss.
I.

Background

For the purpose of deciding this motion, the Court
accepts as true the following allegations from
Plaintiff’s Complaint, ECF No. 1. See Navarro v.
Block, 250 F.3d 729, 732 (9th Cir. 2001).
Defendant Facebook, Inc. (“Facebook”) operates
an online social network. Compl. ¶ 3. As of September

App-24
2014, Facebook had 864 million daily active users and
1.35 billion monthly active users. Id. Users often share
private information on Facebook. Id. ¶ 4. As an “extra
security feature,” a user may activate “login
notifications” to alert her via text message when her
account is accessed from a new device. Id. ¶¶ 4-5. The
notifications state: “Your Facebook account was
accessed from [internet browser] at [time]. Log in for
more info.” Id. ¶ 5.
Login notification text messages are often sent to
the cellphones of persons who have not authorized
Facebook to contact them on their cellphones, who
have requested that the notifications stop, or who do
not use Facebook. Id. Such messages may be sent
several times a day. Id. Facebook’s online instructions
direct users to change their account settings in order
to deactivate login notifications, but provide no
solution for persons who receive messages even
though they have no Facebook account. Id. at 6, Ex. B.
When someone replies “off” to Facebook’s text
messages, Facebook responds with a message stating,
“Facebook texts are now off. Reply on to turn back on.”
Id. ¶ 7. Notwithstanding this response, Facebook
often continues to send unauthorized text messages.
Id.
Plaintiff Noah Duguid began receiving Facebook
login notifications via text message on or around
January 25, 2014. Id. ¶ 20. The messages were sent
from an SMS short code, 326-65 (“FBOOK”), which is
licensed and operated by Defendant or one of its
agents. Id. ¶ 21. Although Duguid never provided his
cellphone number to Facebook or authorized Facebook
to send him text messages, he received repeated login

App-25
notification messages. Id. ¶¶ 22-26. Several example
messages are reproduced below:

Id. ¶ 22, Ex. D. On or around April 20, 2014, Duguid
sent Facebook an email message requesting that the
text messages cease. Id. ¶ 27. In response, Facebook
sent an automated message directing Duguid to log on
to the Facebook website in order to report problematic
content. Id. Duguid’s efforts to deactivate the
messages by responding “off” and “all off” were also
unsuccessful. Id. ¶ 28.
On March 3, 2015, Plaintiff filed his complaint
against Facebook, alleging violations of the Telephone
Consumer Protection Act (“TCPA”). He seeks to
represent the following two classes:
Class 1: All persons within the United States
who did not provide their cellular telephone
number to Defendant and who received one or
more text messages, from or on behalf of

App-26
Defendant to said person’s cellular telephone,
made through the use of any automatic
telephone dialing system within the four
years prior to the filing of the Complaint.
Class 2: All persons within the United States
who, after notifying Defendant that [they] no
longer wished to receive text messages and
receiving a confirmation from Defendant to
that effect, received one or more text
messages, from or on behalf of Defendant to
said person’s cellular telephone, made
through the use of any automatic telephone
dialing system within the four years prior to
the filing of the Complaint.
Id. ¶ 34.
Defendant moves to dismiss the complaint
pursuant to Federal Rule of Civil Procedure 12(b)(6),
and requests that the Court take judicial notice of
certain publicly available webpages. ECF Nos. 24, 243. Plaintiff opposes the motion to dismiss. ECF No. 30.
The Court has jurisdiction over this action
pursuant to 28 U.S.C. section 1331.
II. Request for Judicial Notice
A. Legal Standard
Pursuant to Federal Rule of Evidence 201(b),
“[t]he court may judicially notice a fact that is not
subject to reasonable dispute because it: (1) is
generally known within the trial court’s territorial
jurisdiction; or (2) can be accurately and readily
determined from sources whose accuracy cannot
reasonably be questioned.” The Court may also
“consider materials incorporated into the complaint,”

App-27
where “the complaint necessarily relies upon a
document or the contents of the document are alleged
in a complaint, the document’s authenticity is not in
question and there are no disputed issues as to the
document’s relevance.” Coto Settlement v. Eisenberg,
593 F.3d 1031, 1038 (9th Cir. 2010). The Court “must
take judicial notice if a party requests it and the court
is supplied with the necessary information.” Fed. R.
Evid. 201(c)(2).
B. Facebook Webpages
First, Defendant requests that the Court take
judicial notice of screen shots of three Facebook
webpages: Facebook’s “Statement of Rights and
Responsibilities” and two Help Center webpages
titled, “How do I verify my account?” and “How do I
add or remove credit card info from my account?”. ECF
No. 24-3 at 2; Exs. 1-3. Defendant argues that the
Court may take judicial notice of these exhibits
because they are “currently publicly available on
Facebook’s website—the same website upon which
Plaintiff repeatedly relies in his complaint,” and
“there is no reasonable dispute regarding the
information.” ECF No. 24-3 at 3. Furthermore,
Defendant argues, the Court may consider these
documents pursuant to the incorporation by reference
doctrine because Plaintiff’s Complaint relies on and
attaches Facebook webpages, and alleges facts
relating to the login notification process and the
private information that Facebook users may use login
notifications to protect. ECF No. 24-3 at 4-5. Plaintiff
has not filed an opposition to Defendant’s request for
judicial notice, although he does argue that
“Facebook’s suppositions are matters outside the

App-28
pleadings and should not be considered in deciding the
motion to dismiss.” ECF No. 30 at 4 n.1.
“‘[F]ederal courts considering the issue have
expressed skepticism as to whether it is appropriate to
take judicial notice of information or documents’ from
websites when the sole justification for judicial notice
is that the information or documents ‘appear[] on
websites that are created and maintained by a party
to the litigation.’” Punian v. Gillette Co., No. 14-cv05028-LHK, 2015 WL 4967535, at *5 (N.D. Cal. Aug.
20, 2015) (quoting Gerritsen v. Warner Bros. Entm’t
Inc., No. 14-cv-03305 MMM (CWx), 2015 WL 4069617,
at * 10 (C.D. Cal. Jan. 30, 2015)); see also Fraley v.
Facebook, Inc., 830 F. Supp. 2d 785, 795 (N.D. Cal.
2011) (taking judicial notice of document from
defendant’s website that was cited in the complaint,
but denying request for judicial notice as to other
webpages created by the defendant). The Court finds
that the inclusion of Exhibits 1, 2, and 3 on Facebook’s
website “is not, standing alone, a sufficient basis for
the Court to grant the request” for judicial notice.
Punian, 2015 WL 4967535, at *5.
Moreover, these documents are not incorporated
by reference in Plaintiff’s complaint because it neither
necessarily relies on them nor alleges their contents.
See Coto Settlement, 593 F.3d at 1038. Defendants
correctly state that Plaintiff’s Complaint discusses the
login notification process, includes some Facebook
Help Center webpages as attachments, and states
that users share private information on Facebook.
ECF No. 24-3 at 4-5. But the Complaint does not
reference or incorporate the account verification
process, Facebook’s Statement of Rights and

App-29
Responsibilities, or the process by which users share
credit card details with Facebook. See Fraley, 830 F.
Supp. 2d at 795. The Court therefore denies
Facebook’s request for judicial notice as to Exhibits 1,
2, and 3.
C. Media Reports
Second, Facebook requests that the Court take
judicial notice of the following media reports:
(1) Sharon Profis, Find out if someone’s logging in to
your Facebook account, CNET (Dec. 10, 2011, 4:36
AM),
http://www.cnet.com/au/how-to/find-out-ifsomeones-logging-in-to-your-facebook-account/;
(2) Alyssa Abkowitz, Wrong Number? Blame
Companies’ Recycling, THE WALL STREET
JOURNAL
(Dec.
1,
2011),
http://www.wsj.com/articles/SB100014240 52970204
012004577070122687462582; (3) Alison Griswold,
Venmo Money, Venmo Problems, SLATE (Feb. 25,
2015,
8:10
PM),
http://www.slate.com/
articles/technology/safety_net/2015/02/venmo_securit
y_it_s_not_as_strong_as_the_company_wants_you_to
_think.html. ECF No. 24-3 at 2, Ex. 4-6. Plaintiff has
not filed an opposition to this request.
The Court “may take judicial notice of
publications introduced to indicate what was in the
public realm at the time, not whether the contents of
those articles were in fact true.” Von Saher v. Norton
Simon Museum of Art at Pasadena, 592 F.3d 954, 960
(9th Cir. 2009) (internal quotation marks omitted);
accord Heliotrope Gen., Inc. v. Ford Motor Co., 189
F.3d 971, 981 n. 18 (9th Cir. 1999) (taking judicial
notice “that the market was aware of the information
contained in news articles submitted by the

App-30
defendants”). The Court therefore takes judicial notice
of these publications “solely as an indication of what
information was in the public realm at the time.” Von
Saher, 592 F.3d at 960.
III. Motion to Dismiss
A. Legal Standard

A complaint must contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief” in order to “give the defendant fair
notice of what the . . . claim is and the grounds upon
which it rests.” Fed. R. Civ. P. 8(a)(2); Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007). “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim to
relief that is plausible on its face.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (internal quotation marks
omitted). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. “Dismissal
under Rule 12(b)(6) is appropriate only where the
complaint lacks a cognizable legal theory or sufficient
facts to support a cognizable legal theory.” Mendiondo
v. Centinela Hosp. Med. Ctr., 521 F.3d 1097, 1104 (9th
Cir. 2008). The Court must “accept all factual
allegations in the complaint as true and construe the
pleadings in the light most favorable to the nonmoving
party.” Knievel v. ESPN, 393 F.3d 1068, 1072 (9th Cir.
2005).
B. Discussion
Defendant argues that Plaintiff’s Complaint
should be dismissed for failure to state a claim for
three independent reasons. ECF No. 24 at 1. First,

App-31
Defendant argues that Plaintiff does not adequately
allege that the login notifications were sent by an
automatic telephone dialing system as required under
the TCPA. Id. at 7-12; see 47 U.S.C. § 227(a)(1).
Second, Defendant argues that the login notifications
fall within the TCPA’s exception for calls “made for
emergency purposes.” ECF No. 24 at 12-15; see 47
U.S.C. 227(b)(1)(A). Third, Defendant argues that
because the login notifications are non-commercial
security messages sent to protect individual
consumers’ privacy, they cannot be restricted under
the First Amendment. ECF No. 24 at 15-18. 1
To state a claim for a violation of the TCPA, a
plaintiff must allege that “(1) the defendant called a
cellular telephone number; (2) using an automatic
telephone dialing system; (3) without the recipient’s
prior express consent.” Meyer v. Portfolio Recovery
Assocs., LLC, 707 F.3d 1036, 1043 (9th Cir. 2012); 47
U.S.C. § 227(b)(1). A text message is a “call” within the
meaning of the TCPA. Satterfield v. Simon &
Schuster, Inc., 569 F.3d 946, 954 (9th Cir. 2009). An
“automatic telephone dialing system” (“ATDS”) is
“equipment which has the capacity—(A) to store or
produce telephone numbers to be called, using a
random or sequential number generator; and (B) to
dial such numbers.” 47 U.S.C. § 227(a)(1). “[T]he clear
language of the TCPA ‘mandates that the focus must
In a footnote, Defendant also states that “[i]t is questionable
whether Plaintiff has Article III standing for his TCPA claim”
because he “does not allege that he pays incrementally for each
text he receives or that he in fact paid for the alleged login
notifications.” ECF No. 24 at 2 n.1. Defendant indicates that it
may seek to bring this standing argument “at a later time.” Id.
The Court does not address the argument in this order.
1

App-32
be on whether the equipment has the capacity to store
or produce telephone numbers to be called, using a
random or sequential number generator.’” Meyer, 707
F.3d at 1043 (quoting Satterfield, 569 F.3d at 951)
(emphasis in original). “[A] system need not actually
store, produce, or call randomly or sequentially
generated telephone numbers, it need only have the
capacity to do it.” Satterfield, 569 F.3d at 951.
Plaintiff alleges that “[t]he text messages sent to
Plaintiff’s cellular phone were made with an ATDS as
defined by 47 U.S.C. § 227(a)(1),” and that “[t]he
ATDS has the capacity to store or produce telephone
numbers to be called, using a random or sequential
number generator.” Compl. ¶¶ 29-30. This conclusory
allegation that Facebook used an ATDS is not, without
more, sufficient to support a claim for relief under the
TCPA. Kramer v. Autobytel, Inc., 759 F. Supp. 2d 1165,
1171 (N.D. Cal. 2010) (the “naked assertion” that
messages were sent “using equipment that, upon
information and belief, had the capacity to store or
produce telephone numbers to be called, using a
random or sequential number generator . . . need not
be taken as true”); Flores v. Adir Int’l, LLC, No. 15-cv00076-AB, 2015 WL 4340020, at *3 (C.D. Cal. July 15,
2015) (“Without more, Plaintiff’s conclusory allegation
that Defendant used an ATDS is little more than
speculation, and cannot support a claim for relief
under the TCPA”); see also Twombly, 550 U.S. at 555
(“a plaintiff’s obligation to provide the grounds of his
entitlement to relief requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do” (internal quotation
marks and alterations omitted)).

App-33
Because it may be difficult for a plaintiff to
identify the specific type of dialing system used
without the benefit of discovery, courts have allowed
TCPA claims to proceed beyond the pleading stage
where a plaintiff’s allegations support the inference
that an ATDS was used. For example, in Kramer v.
Autobytel, the court found that the complaint, read as
a whole, contained “sufficient facts to show that it is
plausible” that the defendants used an ATDS where
the plaintiff alleged that he received messages from a
short code registered to one of the defendants, the
messages were advertisements written in an
impersonal manner, and the plaintiff had no other
reason to be in contact with the defendants. 759 F.
Supp. 2d at 1171. Similarly, in Kazemi v. Payless
Shoesource, Inc., the court concluded that “plaintiff’s
description of the received messages as being
formatted in SMS short code licensed to defendants,
scripted in an impersonal manner and sent en masse
supports a reasonable inference that the text
messages were sent using an ATDS,” and the
complaint
therefore
met
federal
pleading
requirements. No. 09-cv-05142-MHP, 2010 WL
963225, at *2 (N.D. Cal. Mar. 16, 2010); see also Gragg
v. Orange Cab Co., Inc., No. 12-cv-0576-RSL, 2013 WL
195466, at *3 n.3 (W.D. Wash. Jan. 17, 2013)
(“Plaintiffs alleging the use of a particular type of
equipment under the TCPA are generally required to
rely on indirect allegations such as the content of the
message, the context in which it was received, and the
existence of similar messages, to raise an inference
that an automated dialer was utilized. Prior to the
initiation of discovery, courts cannot expect more.”);
see also Scott Dodson, New Pleading, New Discovery,

App-34
109 Mich. L. Rev. 53 (2010) (arguing in favor of
“limited presuit or predismissal discovery to
counteract
the
information
asymmetry
and
overscreening caused by Twombly and Iqbal”).
Where, however, a “[p]laintiff’s own allegations
suggest direct targeting that is inconsistent with the
sort of random or sequential number generation
required for an ATDS,” courts conclude that the
allegations are insufficient to state a claim for relief
under the TCPA. Flores, 2015 WL 4340020, at *4. In
Flores v. Adir International, for example, the plaintiff
alleged that the defendant was a debt collector that
sent him a number of text messages for the purpose of
collecting on a specific debt, each of which included the
same reference number. Id. The text messages did not
include the plaintiff’s name and appeared to follow a
generic template, and the plaintiff alleged that he
received immediate responses to his “Stop” texts. Id.
at *3-4. The court found that while these allegations
might support the reasonable inference that the
defendant’s equipment was capable of some form of
automation, they did not suggest the use of an ATDS
as defined in the TCPA. Id. at *4-5. To the contrary,
“the content of the message, the context in which it
was received, and the existence of similar messages all
weigh[ed] against an inference that Defendant used
an ATDS,” suggesting instead “that Defendant
expressly targeted Plaintiff.” Id. at *5 (emphasis in
original) (internal quotation marks omitted). See also
Daniels v. Cmty. Lending, Inc., No. 13-cv-488-WQHJMA, 2014 WL 51275, at *5 (S.D. Cal. Jan. 6, 2014)
(plaintiffs did not adequately allege the use of an
ATDS where the “alleged calls to Plaintiffs do not
appear to have been ‘random,’ 47 U.S.C. § 227(a)(1);

App-35
instead the calls are alleged to be directed specifically
toward Plaintiffs”).
Here, as in Flores, Plaintiff’s allegations do not
support the inference that the text messages he
received were sent using an ATDS. Plaintiff alleges
that the login notifications are designed “to alert users
when their account is accessed from a new device.”
Compl. ¶ 4. The text messages follow the following
template: “Your Facebook account was accessed from
[internet browser] at [time]. Log in for more info.” Id.
¶¶ 5, 22. Plaintiff has attached to his Complaint a
webpage from Facebook’s online Help Center, which
explains that users must add their mobile numbers to
their accounts in order to receive login notifications by
text message. Id. Ex. A. These allegations suggest that
Facebook’s login notification text messages are
targeted to specific phone numbers and are triggered
by attempts to log in to Facebook accounts associated
with those phone numbers. 2 Although Plaintiff alleges
that the operation of this system is “sloppy” because
messages are sent to individuals who have never had
a Facebook account, have never shared their phone
number with Facebook, and/or who have requested
deactivation of the login notifications, he does not
suggest that Facebook sends text messages en masse
to randomly or sequentially generated numbers. Id.
¶¶ 5, 8. As in Flores, “it is at least possible that
Defendant utilized a system that is capable of storing
or generating a random or sequential list of telephone
2 In his opposition to the motion to dismiss, Plaintiff
acknowledges that “the messages are automatically sent when
the subject Facebook account is accused from an unknown
device.” ECF No. 30 at 5.

App-36
numbers and then dialing them,” 2015 WL 4340020,
at *4 (emphasis in original), but nothing in Plaintiff’s
Complaint “nudge[s] [his] claims across the line from
conceivable to plausible.” Twombly, 550 U.S. at 547. 3
In his opposition, Plaintiff suggests that the
capacity to produce or store random or sequential
numbers is not a necessary feature of an ATDS, citing
a 2003 order in which the Federal Communications
Commission (“FCC”) concluded that a predictive
dialer constitutes an ATDS. ECF No. 30 at 7-13. The
FCC described a predictive dialer as “equipment that
dials numbers and, when certain computer software is
attached, also assists telemarketers in predicting
when a sales agent will be available to take calls. The
hardware, when paired with certain software, has the
capacity to store or produce numbers and dial those
numbers at random, in sequential order, or from a
database of numbers.” In re Rules & Regulations
Implementing the Telephone Consumer Protection Act
of 1991, 18 FCC Rcd. 14014, 14091-93 (2003). Courts
in this district have concluded that the reasoning of
the FCC’s order is not restricted to predictive dialers.
See Nunes v. Twitter, Inc., No. 14-cv-02843-VC, 2014
Plaintiff also alleges that Facebook sends automatic
responses to opt-out texts. These responses are not actionable
under the TCPA. See Derby v. AOL, Inc., No. 15-cv-00452-RMW,
2015 WL 3477658, at *6 (N.D. Cal. June 1, 2015) (“a single
message sent in response to plaintiff’s text (or texts) is not the
kind of intrusive, nuisance call that the TCPA prohibits”); In Re
Rules & Regulations Implementing the Telephone Consumer
Protection Act of 1991, 30 FCC Rcd. 7961 ¶ 57 at *21 (2015)
(describing a ruling in which the FCC “concluded that a one-time
text confirming a consumer’s request to opt out of future calls did
not violate the TCPA”).
3

App-37
WL 6708465, at *1 (N.D. Cal. Nov. 26, 2014)
(“Although this language is not crystal clear, it
appears to encompass any equipment that stores
telephone numbers in a database and dials them
without human intervention.”); Fields v. Mobile
Messengers Am., Inc., No. 12-cv-05160-WHA, 2013 WL
6774076, at *3 (N.D. Cal. Dec. 23, 2013) (concluding
that there were genuine disputes of material fact
regarding whether messages were sent using an
ATDS where plaintiffs alleged that the equipment
used functioned similarly to a predictive dialer in that
it received numbers from a computer database and
dialed those numbers without human intervention).
But Duguid has not alleged that Facebook uses a
predictive dialer, or equipment that functions like a
predictive dialer. The Complaint plainly alleges that
the text messages were sent using an ATDS that “has
the capacity to store or produce telephone numbers to
be called, using a random or sequential number
generator.” Compl. ¶¶ 29-30. As discussed above, the
Court concludes that this claim is not plausible, and it
will therefore dismiss the TCPA claims for failure to
adequately allege that the login notifications were
sent using an ATDS.
Because the Court dismisses the complaint on this
basis, it need not address Facebook’s arguments that
the motion should be granted because Plaintiff’s
allegations establish that human intervention
triggered the login notifications, and because the
notifications are sent for emergency purposes. The
Court also does not reach the argument that imposing
liability on Facebook for sending the login
notifications would violate the First Amendment. See

App-38
San Francisco Tech., Inc. v. GlaxoSmithKline LLC,
No. 10-cv-03248-JF NJV, 2011 WL 941096, at *2 (N.D.
Cal. Mar. 16, 2011) (“Because it concludes that SF
Tech’s claims are subject to dismissal on other bases,
the Court need not decide the constitutional issues
presented here, at least at the present time.”).
CONCLUSION
For the foregoing reasons, the motion to dismiss
is granted without prejudice. Plaintiff may file an
amended complaint within 30 days of the date of this
order.
An Initial Case Management Conference is
scheduled for June 1, 2016. A Joint Case Management
Conference Statement is due by May 18, 2016. See
ECF No. 29.
IT IS SO ORDERED.
Dated: March 24, 2016
[handwritten: signature]
JON S. TIGAR
United States District Judge

App-39
Appendix D
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________
No. 15-cv-00985-JST
________________
NOAH DUGUID,
v.

Plaintiff,

FACEBOOK, INC.,
Defendant.
________________
Filed: Feb. 16, 2017
________________
ORDER GRANTING MOTION TO DISMISS
WITH PREJUDICE
________________
Before the Court is Defendant Facebook, Inc.’s
Motion to Dismiss Plaintiff’s First Amended
Complaint Pursuant to Federal Rule of Civil
Procedure 12(b)(6). ECF No. 65. Plaintiff Noah Duguid
opposes the motion. ECF No. 73. For the reasons
below, the Court will grant the motion to dismiss with
prejudice.
I.

Background
A. Factual History

For the purpose of deciding this motion, the Court
accepts as true the following allegations from
Plaintiff’s First Amended Complaint (“FAC”), ECF No.

App-40
53. See Navarro v. Block, 250 F.3d 729, 732 (9th Cir.
2001).
Defendant Facebook, Inc. (“Facebook”) offers an
“extra security feature” for its consumers through an
automated “login notification” process, in which
Facebook sends computer-generated text messages
when a Facebook account is accessed from a new
device. FAC ¶ 14. When an account is disabled due to
suspected fraud, Facebook’s “Login Approval” process
sends a code to a user’s mobile phone via text message
and requires the user to enter the security code to log
into Facebook. Id. ¶ 18. Facebook maintains a
database of phone numbers on its computers to
transmit these alert text messages to selected
numbers. Id. ¶ 19.
Plaintiff alleges that many consumers receive text
messages from Facebook even though they did not
authorize Facebook to contact them on their
cellphones. Id. ¶ 51. Facebook’s online instructions to
deactivate the login notification feature provide no
solution for those who receive the messages despite
having no Facebook account. Id. ¶ 52. When someone
replies “off” to Facebook’s text messages, Facebook
responds with a message stating, “Facebook texts are
now off. Reply on to turn back on.” Id. ¶ 53. Even
though it sends this response, Facebook often
continues to send unauthorized text messages. Id.
¶¶ 26, 53.
Plaintiff
Noah
Duguid
began
receiving
automated, templated text messages from Facebook
on his cellular phone. Id. ¶ 21. These messages were
sent from an SMS short code, 326-65 (“FBOOK”),
which is licensed and operated by Facebook or one of

App-41
its agents. Id. ¶ 22. Several example messages
received by Duguid are reproduced below:

Id. ¶ 23. Duguid could not “Log in” to turn off the
messages because he does not have a Facebook
account. Id. ¶ 24. He became “frustrated” with the text
message bombardment. Id. ¶ 25. On or around April
20, 2014, Duguid sent Facebook an email message
requesting that the text messages cease. Id. ¶ 34. In
response, Facebook sent Duguid an automated
message directing Duguid to log on to the Facebook
website to report problematic content. Id. ¶ 35.
Duguid’s efforts to deactivate the messages by
responding “off” and “all off” were also unsuccessful.
Id. ¶¶ 25-26.

App-42
Plaintiff alleges that Defendant sent text
messages with an automatic telephone dialing system
(“ATDS”) as defined by 47 U.S.C. § 227(a)(1) and the
Federal Communications Commission (“FCC”). Id.
¶ 38. Specifically, Plaintiff alleges that Defendant’s
system either has the capacity to generate random or
sequential numbers or can add that capacity with
code. Id. ¶¶ 40-50.
B. Procedural History
Plaintiff Noah Duguid filed his original complaint
on March 3, 2015, alleging violations of the Telephone
Consumer Protection Act, 47 U.S.C. § 227 (the
“TCPA”). ECF No. 1 ¶ 1. On March 24, 2016, this
Court dismissed Plaintiff’s complaint against
Facebook without prejudice. ECF No. 48 at 11. The
Court found that Plaintiff failed to adequately allege
that text messages from Facebook were sent using an
ATDS as required under the TCPA. Id. Plaintiff then
filed his FAC, which re-asserted the TCPA violation
claim after adding additional factual allegations. ECF
No. 53. Plaintiff seeks to represent the following two
classes:
Class 1: All persons within the United States
who did not provide their cellular telephone
number to Defendant and who received one or
more text messages, from or on behalf of
Defendant to said person’s cellular telephone,
made through the use of any automatic
telephone dialing system within the four
years prior to the filing of the Complaint.
Class 2: All persons within the United States
who, after notifying Defendant that it no
longer wished to receive text messages and

App-43
receiving a confirmation from Defendant to
that effect, received one or more text
messages, from or on behalf of Defendant to
said person’s cellular telephone, made
through the use of any automatic telephone
dialing system within the four years prior to
the filing of the Complaint.
Id. ¶ 58.
Defendant moves to dismiss Plaintiff’s FAC for
lack of standing and failure to state a claim under the
TCPA. ECF No. 65. Plaintiff opposes the motion to
dismiss. ECF No. 73.
The Court has jurisdiction over this action
pursuant to 28 U.S.C. § 1331.
II. Legal Standards
A. Motion to Dismiss Under Rule 12(b)(1)
“If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss the
action.” Fed. R. Civ. P. 12(h)(3). A defendant may raise
the defense of lack of subject matter jurisdiction by
motion pursuant to Federal Rule of Civil Procedure
12(b)(1). The plaintiff always bears the burden of
establishing subject matter jurisdiction. Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 377
(1994). “A Rule 12(b)(1) jurisdictional attack may be
facial or factual.” Safe Air for Everyone v. Meyer, 373
F.3d 1035, 1039 (9th Cir. 2004). “In a facial attack, the
challenger asserts that the allegations contained in a
complaint are insufficient on their face to invoke
federal jurisdiction.” Id. “By contrast, in a factual
attack, the challenger disputes the truth of the
allegations that, by themselves, would otherwise

App-44
invoke federal jurisdiction.” Id. In considering a facial
attack, the court “determine[s] whether the complaint
alleges ‘sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.’”
Terenkian v. Republic of Iraq, 694 F.3d 1122, 1131
(9th Cir. 2012) (quoting Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009)).
B. Motion to Dismiss Under Rule 12(b)(6)
A complaint must contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief” in order to “give the defendant fair
notice of what the . . . claim is and the grounds upon
which it rests.” Fed. R. Civ. P. 8(a)(2); Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007). “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim to
relief that is plausible on its face.” Ashcroft, 556 U.S.
at 678 (internal quotation marks omitted). “A claim
has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Id. “Dismissal under Rule
12(b)(6) is appropriate only where the complaint lacks
a cognizable legal theory or sufficient facts to support
a cognizable legal theory.” Mendiondo v. Centinela
Hosp. Med. Ctr., 521 F.3d 1097, 1104 (9th Cir. 2008).
The Court must “accept all factual allegations in the
complaint as true and construe the pleadings in the
light most favorable to the nonmoving party.” Knievel
v. ESPN, 393 F.3d 1068, 1072 (9th Cir. 2005).
III. Discussion
Defendant moves to dismiss Plaintiff’s FAC for
lack of Article III standing pursuant to Rule 12(b)(1)

App-45
and for failure to state a claim pursuant to Rule
12(b)(6). ECF No. 65 at 1. The Court concludes that
Plaintiff has standing but again fails to state a
plausible claim under the TCPA.
A. Standing
Defendant first asserts that under the recent
decision of Spokeo, Inc. v. Robins, 136 S. Ct. 1540
(2016), as revised (May 24, 2016), Plaintiff lacks
Article III standing. The Ninth Circuit squarely
rejected that argument in Patten v. Vertical Fitness
Group, LLC, et al., No. 14-55980, 2017 WL 460663
(9th Cir. Jan. 30, 2017). The court found that, in
passing the TCPA, Congress had purposefully
“establishe[d] the substantive right to be free from
certain types of phone calls and texts absent consumer
consent.” Id. at *4. Deferring to Congress’s judgment,
the court held that a “plaintiff alleging a violation
under the TCPA ‘need not allege any additional harm
beyond the one Congress has identified’” to establish
Article III standing. Id. Here, Duguid’s allegations
that he received unwanted text messages suffice to
confer standing.
B. TCPA Claim
Defendant offers three reasons why Plaintiff’s
FAC should be dismissed for failure to state a claim.
ECF No. 65 at 1-3. First, Defendant argues that
Plaintiff did not adequately allege that the login
notifications were sent by an ATDS as defined by the
TCPA. Id. at 1-2; see 47 U.S.C. § 227(a)(1). Second,
Defendant argues that the login messages fall within
the TCPA’s exception for calls “made for emergency
purposes.” ECF No. 65 at 2; see 47 U.S.C.
§ 227(b)(1)(A). Third, Defendant argues that even if

App-46
the TCPA reaches the login messages, the TCPA
violates the First Amendment as a content-based
restriction of speech that cannot survive strict
scrutiny. ECF No. 65 at 20. Because the Court again
concludes that Plaintiff has failed to plausibly allege
the use of an ATDS, it does not reach the latter two of
Defendant’s arguments.
To state a claim for a violation of the TCPA, a
plaintiff must allege that “(1) the defendant called a
cellular telephone number; (2) using an automatic
telephone dialing system; (3) without the recipient’s
prior express consent.” Meyer v. Portfolio Recovery
Assocs., LLC, 707 F.3d 1036, 1043 (9th Cir. 2012); see
47 U.S.C. § 227(b)(1). A text message is a “call” within
the meaning of the TCPA. Satterfield v. Simon &
Schuster, Inc., 569 F.3d 946, 954 (9th Cir. 2009). An
“automatic telephone dialing system means
equipment which has the capacity—(A) to store or
produce telephone numbers to be called, using a
random or sequential number generator; and (B) to
dial such numbers.” 47 U.S.C. § 227(a)(1). In
evaluating whether equipment constitutes an ATDS,
“the clear language of the TCPA ‘mandates that the
focus must be on whether the equipment has the
capacity to store or produce telephone numbers to be
called, using a random or sequential number
generator.’” Meyer, 707 F.3d at 1043 (quoting
Satterfield, 569 F.3d at 951). Thus, “a system need not
actually store, produce, or call randomly or
sequentially generated telephone numbers, it need
only have the capacity to do it.” Satterfield, 569 F.3d
at 951.

App-47
Because it may be difficult for a plaintiff to
identify the specific type of dialing system used
without the benefit of discovery, courts have allowed
TCPA claims to proceed beyond the pleading stage
where a plaintiff’s allegations support the inference
that an ATDS was used. See, e.g., Kramer v. Autobytel,
Inc., 759 F. Supp. 2d 1165, 1171 (N.D. Cal. 2010)
(finding that the complaint, read as a whole, contained
“sufficient facts to show that it is plausible” that the
defendants used an ATDS where the plaintiff alleged
that he received messages from a short code registered
to one of the defendants, the messages were
advertisements written in an impersonal manner, and
the plaintiff had no other reason to be in contact with
the defendants); Kazemi v. Payless Shoesource Inc.,
No. 09-cv-05142-MHP, 2010 WL 963225, at *2 (N.D.
Cal. Mar. 16, 2010) (concluding that the complaint met
federal pleading requirements because the “plaintiff’s
description of the received messages as being
formatted in SMS short code licensed to defendants,
scripted in an impersonal manner and sent en masse
supports a reasonable inference that the text
messages were sent using an ATDS”).
But where a “[p]laintiff’s own allegations suggest
direct targeting that is inconsistent with the sort of
random or sequential number generation required for
an ATDS,” courts conclude that the allegations are
insufficient to state a claim for relief under the TCPA.
See Flores v. Adir Int’l, LLC, No. 15-cv-00076-AB,
2015 WL 4340020, at *4 (C.D. Cal. July 15, 2015).
Courts generally rely on the message content, the
context in which the message was received, and the
existence of similar messages to assess whether an
automated dialer was utilized. See id. at *5. In Flores,

App-48
for example, the plaintiff alleged that the defendant
debt collector used an ATDS to send text messages
about a debt because the messages were on a generic
template that did not refer to the plaintiff by name,
though they all included a reference number to
identify the plaintiff. Id. at *3. The court
acknowledged that it was “at least possible” that the
defendant utilized a system “capable of storing or
generating a random or sequential list of telephone
numbers and then dialing them,” but that the plaintiff
offered no allegations to take his claim “‘across the line
from conceivable to plausible.’” Id. (quoting Twombly,
556 U.S. at 680). It noted that the messages included
a unique reference number, that the messages sought
to collect on a “specific” debt, and that other messages
contained similar reference numbers and content, all
of which “supports the inference” that the defendant
“expressly targeted” the plaintiff. Id.
This Court dismissed Duguid’s prior complaint
because his allegations that Facebook’s “login
notifications are designed ‘to alert users when their
account is accessed from a new device’” after
“users . . . add their mobile numbers to their accounts”
did not plausibly support the inference that Facebook
was using an ATDS. ECF No. 48 at 9. It noted that
Duguid “d[id] not suggest that Facebook sends text
messages en masse to randomly or sequentially
generated numbers.” Id. at 9-10. Instead, Duguid’s
allegations indicated that “Facebook’s login
notification text messages are targeted to specific
phone numbers and are triggered by attempts to log in
to Facebook accounts associated with those phone
numbers.” Id. at 9. In line with Flores, this suggested
direct targeting that was inconsistent with the

App-49
existence of an ATDS. The Court also dismissed
Duguid’s suggestion that since predictive dialers
constitute an ATDS, the capacity to produce or store
random or sequential numbers is not a necessary
feature of an ATDS, given that Duguid “has not
alleged that Facebook uses a predictive dialer, or
equipment that functions like a predictive dialer.” Id.
at 11.
Duguid has added a number of new facts to his
FAC, but once again fails to plausibly allege that
Facebook used an ATDS. Duguid newly alleges that
Facebook uses a “computerized protocol for creating
automated text messages programmed to appear
customized to the user” through a template-based
process. FAC ¶¶ 25-30. Additionally, Duguid alleges
that in addition to the login notification process
described in the original complaint, Facebook also
employs a “Login Approval” process, a two factor
authentication system requiring users to “enter a
code” sent to mobile phones via text message
whenever users log into Facebook from a new or
unrecognized device. Id. ¶¶ 15, 18. It is unclear why
Duguid believes these facts would strengthen the
inference that Facebook sent text messages en masse
using an ATDS. To the contrary, allegations of
customizable protocols and unique codes only further
suggest, in line with Duguid’s other allegations, that
the messages were sent through direct targeting that
is akin to Flores.
Duguid further suggests that Facebook’s system
“is still an ATDS . . . because it has the capacity to
sequentially and randomly dial,” given that it is a
“computer based system” with “capacity to generate

App-50
random numbers” and “capacity to generate
sequential numbers.” ECF No. 73 at 18; FAC ¶¶ 4041. And even if Facebook’s system does not currently
have those abilities, Plaintiff argues, the capacity “can
be trivially added with minimal computer coding.”
ECF No. 73 at 18; see FAC ¶¶ 44-50 (providing code
that could be added to Facebook’s system to generate
random or sequential numbers). Duguid’s allegations
are conclusory. He merely repeats the central
elements of an ATDS and asserts that Facebook’s
system possesses all of them. Nor does the possibility
that these elements “can be trivially added” plausibly
suggest that they are in fact present here.
In his opposition, Duguid argues that he has
plausibly alleged that Facebook uses a “predictive
dialer-like system.” ECF No. 73 at 11. A predictive
dialer, often used by telemarketers, is “equipment that
dials numbers” and, when paired with certain
software, “has the capacity to store or produce
numbers and dial those numbers at random, in
sequential order, or from a database of numbers.” In
re Rules & Regulations Implementing the Telephone
Consumer Protection Act of 1991, 18 FCC Rcd. 14014,
14091 (2003). Both the FCC and courts in this district
have concluded that predictive dialers may fall within
the scope of the TCPA. Id. at 14092-93; see, e.g., Nunes
v. Twitter, Inc., No. 14-cv-02843-VC, 2014 WL
6708465, at *1 (N.D. Cal. Nov. 26, 2014) (finding that
an ATDS “appears to encompass any equipment that
stores telephone numbers in a database and dials
them without human intervention”).
Here, however, Plaintiff has again failed to allege
the existence of such a system. At best, his allegations

App-51
are conclusory, given that he merely asserts that
Facebook “maintains a database of phone numbers on
its computer” and “transmits alert text messages to
selected numbers from its database using its
automated protocol,” without offering any factual
support for this claim. FAC ¶ 19. At worst, this claim
contradicts the variety of other allegations offered by
Plaintiff, which suggest that Facebook does not dial
numbers randomly but rather directly targets selected
numbers based on the input of users and when certain
logins were attempted.
Duguid’s reliance on Nunes is also misplaced. See
ECF No. 73 at 11. In Nunes, the court noted that
“dismissal of the complaint would not be warranted”
because the plaintiff plausibly alleged that the
defendant’s “equipment ha[s] the “capacity to
‘generate’ numbers at random or sequentially” in
addition to its ability to store and dial numbers
without human intervention. 2014 WL 6708465, at *12. Here, no plausible inference can be made that
Facebook’s equipment has the capacity to generate
random or sequential numbers.
As such, this Court dismisses Plaintiff’s TCPA
claims for failure to adequately allege that the text
messages were sent using an ATDS. Because the
Court dismisses the FAC on this basis, it need not
address Facebook’s arguments that the allegations
show human intervention triggered the messages and
that the messages were sent for emergency purposes.
Likewise, the Court does not reach the argument that
the TCPA violates the First Amendment. See San
Francisco Tech., Inc. v. GlaxoSmithKline LLC, No. 10cv-03248-JF NJV, 2011 WL 941096, at *2 (N.D. Cal.

App-52
Mar. 16, 2011) (“Because it concludes that SF Tech’s
claims are subject to dismissal on other bases, the
Court need not decide the constitutional issues
presented here, at least at the present time.”).
This is Plaintiff’s second attempt to plausibly
allege the existence of an ATDS, and he has been
unable to do so. Plaintiff does not offer any additional
allegations that he could provide if given further leave
to amend, and the Court is unable to identify any,
given that his current allegations strongly suggest
direct targeting rather than random or sequential
dialing. Accordingly, the Court concludes that further
amendment would be futile, and dismisses Plaintiff’s
complaint with prejudice.
CONCLUSION
For the foregoing reasons, the Motion to Dismiss
Plaintiff’s First Amended Complaint is granted with
prejudice.
IT IS SO ORDERED.
Dated: February 16, 2017
[handwritten: signature]
JON S. TIGAR
United States District Court

App-53
Appendix E
RELEVANT STATUTORY PROVISION
47 U.S.C. § 227
(a) Definitions
As used in this section—
(1) The term ‘‘automatic telephone dialing
system’’ means equipment which has the
capacity—
(A) to store or produce telephone numbers to
be called, using a random or sequential
number generator; and
(B) to dial such numbers.
(2) The term ‘‘established business relationship’’,
for purposes only of subsection (b)(1)(C)(i),, shall
have the meaning given the term in section
64.1200 of title 47, Code of Federal Regulations,
as in effect on January 1, 2003, except that—
(A) such term shall include a relationship
between a person or entity and a business
subscriber subject to the same terms
applicable under such section to a
relationship between a person or entity and a
residential subscriber; and
(B) an established business relationship
shall be subject to any time limitation
established pursuant to paragraph (2)(G)). 1
(3) The term ‘‘telephone facsimile machine’’
means equipment which has the capacity (A) to
transcribe text or images, or both, from paper into
1

So in original. Second closing parenthesis should not appear.

App-54
an electronic signal and to transmit that signal
over a regular telephone line, or (B) to transcribe
text or images (or both) from an electronic signal
received over a regular telephone line onto paper.
(4) The term ‘‘telephone solicitation’’ means the
initiation of a telephone call or message for the
purpose of encouraging the purchase or rental of,
or investment in, property, goods, or services,
which is transmitted to any person, but such term
does not include a call or message (A) to any
person with that person’s prior express invitation
or permission, (B) to any person with whom the
caller has an established business relationship, or
(C) by a tax exempt nonprofit organization.
(5) The term ‘‘unsolicited advertisement’’ means
any material advertising the commercial
availability or quality of any property, goods, or
services which is transmitted to any person
without that person’s prior express invitation or
permission, in writing or otherwise.
(b) Restrictions on use of automated telephone
equipment
(1) Prohibitions
It shall be unlawful for any person within the
United States, or any person outside the United States
if the recipient is within the United States—
(A) to make any call (other than a call made
for emergency purposes or made with the
prior express consent of the called party)
using any automatic telephone dialing
system or an artificial or prerecorded voice—

App-55
(i) to any emergency telephone line
(including any ‘‘911’’ line and any
emergency line of a hospital, medical
physician or service office, health care
facility, poison control center, or fire
protection or law enforcement agency);
(ii) to the telephone line of any guest
room or patient room of a hospital, health
care facility, elderly home, or similar
establishment; or
(iii) to any telephone number assigned to
a paging service, cellular telephone
service, specialized mobile radio service,
or other radio common carrier service, or
any service for which the called party is
charged for the call unless such call is
made solely to collect a debt owed to or
guaranteed by the United States;
(B) to initiate any telephone call to any
residential telephone line using an artificial
or prerecorded voice to deliver a message
without the prior express consent of the called
party, unless the call is initiated for
emergency purposes, is made solely pursuant
to the collection of a debt owed to or
guaranteed by the United States, or is
exempted by rule or order by the Commission
under paragraph (2)(B);
(C) to use any telephone facsimile machine,
computer, or other device to send, to a
telephone facsimile machine, an unsolicited
advertisement, unless—

App-56
(i) the unsolicited advertisement is
from a sender with an established
business relationship with the recipient;
(ii) the sender obtained the number of
the
telephone
facsimile
machine
through—
(I) the voluntary communication of
such number, within the context of
such
established
business
relationship, from the recipient of
the unsolicited advertisement, or
(II) a directory, advertisement, or
site on the Internet to which the
recipient voluntarily agreed to make
available its facsimile number for
public distribution,
except that this clause shall not apply in the case of an
unsolicited advertisement that is sent based on an
established business relationship with the recipient
that was in existence before July 9, 2005, if the sender
possessed the facsimile machine number of the
recipient before July 9, 2005; and
(iii) the
unsolicited
advertisement
contains
a
notice
meeting
the
requirements under paragraph (2)(D),
except that the exception under clauses (i) and (ii)
shall not apply with respect to an unsolicited
advertisement sent to a telephone facsimile machine
by a sender to whom a request has been made not to
send future unsolicited advertisements to such
telephone facsimile machine that complies with the
requirements under paragraph (2)(E); or

App-57
(D) to use an automatic telephone dialing
system in such a way that two or more
telephone lines of a multi-line business are
engaged simultaneously.
(2) Regulations;
provisions

exemptions

and

other

The Commission shall prescribe regulations to
implement the requirements of this subsection. In
implementing the requirements of this subsection, the
Commission—
(A) shall consider prescribing regulations to
allow businesses to avoid receiving calls made
using an artificial or prerecorded voice to
which they have not given their prior express
consent;
(B) may, by rule or order, exempt from the
requirements of paragraph (1)(B) of this
subsection, subject to such conditions as the
Commission may prescribe—
(i) calls that are not made for a
commercial purpose; and
(ii) such classes or categories of calls
made for commercial purposes as the
Commission determines—
(I) will not adversely affect the
privacy rights that this section is
intended to protect; and
(II) do not include the transmission
of any unsolicited advertisement;
(C) may, by rule or order, exempt from the
requirements of paragraph (1)(A)(iii) of this

App-58
subsection calls to a telephone number
assigned to a cellular telephone service that
are not charged to the called party, subject to
such conditions as the Commission may
prescribe as necessary in the interest of the
privacy rights this section is intended to
protect;
(D) shall provide that a notice contained in
an unsolicited advertisement complies with
the requirements under this subparagraph
only if—
(i) the notice is clear and conspicuous
and on the first page of the unsolicited
advertisement;
(ii) the notice states that the recipient
may make a request to the sender of the
unsolicited advertisement not to send
any future unsolicited advertisements to
a telephone facsimile machine or
machines and that failure to comply,
within the shortest reasonable time, as
determined by the Commission, with
such a request meeting the requirements
under subparagraph (E) is unlawful;
(iii) the
notice
requirements for
subparagraph (E);

sets
forth
the
a request under

(iv) the notice includes—
(I) a domestic contact telephone
and facsimile machine number for
the recipient to transmit such a
request to the sender; and

App-59
(II) a cost-free mechanism for a
recipient to transmit a request
pursuant to such notice to the sender
of the unsolicited advertisement; the
Commission shall by rule require the
sender to provide such a mechanism
and may, in the discretion of the
Commission and subject to such
conditions as the Commission may
prescribe, exempt certain classes of
small business senders, but only if
the Commission determines that the
costs to such class are unduly
burdensome given the revenues
generated by such small businesses;
(v) the telephone and facsimile machine
numbers and the cost-free mechanism set
forth pursuant to clause (iv) permit an
individual or business to make such a
request at any time on any day of the
week; and
(vi) the notice complies with
requirements of subsection (d);

the

(E) shall provide, by rule, that a request not
to send future unsolicited advertisements to
a telephone facsimile machine complies with
the requirements under this subparagraph
only if—
(i) the request identifies the telephone
number or numbers of the telephone
facsimile machine or machines to which
the request relates;

App-60
(ii) the request is made to the telephone
or facsimile number of the sender of such
an unsolicited advertisement provided
pursuant to subparagraph (D)(iv) or by
any other method of communication as
determined by the Commission; and
(iii) the person making the request has
not, subsequent to such request, provided
express invitation or permission to the
sender, in writing or otherwise, to send
such advertisements to such person at
such telephone facsimile machine;
(F) may, in the discretion of the Commission
and subject to such conditions as the
Commission
may
prescribe,
allow
professional or trade associations that are
tax-exempt nonprofit organizations to send
unsolicited advertisements to their members
in furtherance of the association’s tax-exempt
purpose that do not contain the notice
required by paragraph (1)(C)(iii), except that
the Commission may take action under this
subparagraph only—
(i) by regulation issued after public
notice and opportunity for public
comment; and
(ii) if the Commission determines that
such notice required by paragraph
(1)(C)(iii) is not necessary to protect the
ability of the members of such
associations to stop such associations
from sending any future unsolicited
advertisements; and

App-61
(G)(i)
may, consistent with clause (ii), limit
the duration of the existence of an
established
business
relationship,
however, before establishing any such
limits, the Commission shall—
(I) determine whether the existence
of the exception under paragraph
(1)(C) relating to an established
business relationship has resulted in
a significant number of complaints to
the Commission regarding the
sending
of
unsolicited
advertisements
to
telephone
facsimile machines;
(II) determine whether a significant
number of any such complaints
involve unsolicited advertisements
that were sent on the basis of an
established business relationship
that was longer in duration than the
Commission believes is consistent
with the reasonable expectations of
consumers;
(III) evaluate the costs to senders of
demonstrating the existence of an
established business relationship
within a specified period of time and
the benefits to recipients of
establishing a limitation on such
established business relationship;
and

App-62
(IV) determine whether with respect
to small businesses, the costs would
not be unduly burdensome; and
(ii) may not commence a proceeding to
determine whether to limit the duration
of the existence of an established
business
relationship
before
the
expiration of the 3-month period that
begins on July 9, 2005.
(3) Private right of action
A person or entity may, if otherwise permitted by
the laws or rules of court of a State, bring in an
appropriate court of that State—
(A) an action based on a violation of this
subsection or the regulations prescribed
under this subsection to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive $500
in damages for each such violation, whichever
is greater, or
(C) both such actions.
If the court finds that the defendant willfully or
knowingly violated this subsection or the regulations
prescribed under this subsection, the court may, in its
discretion, increase the amount of the award to an
amount equal to not more than 3 times the amount
available under subparagraph (B) of this paragraph.
(c) Protection of subscriber privacy rights
(1) Rulemaking proceeding required
Within 120 days after December 20, 1991, the
Commission shall initiate a rulemaking proceeding

App-63
concerning the need to protect residential telephone
subscribers’ privacy rights to avoid receiving
telephone solicitations to which they object. The
proceeding shall—
(A) compare and evaluate alternative
methods and procedures (including the use of
electronic databases, telephone network
technologies, special directory markings,
industry-based or company-specific ‘‘do not
call’’ systems, and any other alternatives,
individually or in combination) for their
effectiveness in protecting such privacy
rights, and in terms of their cost and other
advantages and disadvantages;
(B) evaluate the categories of public and
private entities that would have the capacity
to establish and administer such methods
and procedures;
(C) consider whether different methods and
procedures may apply for local telephone
solicitations, such as local telephone
solicitations of small businesses or holders of
second class mail permits;
(D) consider whether there is a need for
additional Commission authority to further
restrict telephone solicitations, including
those calls exempted under subsection (a)(3)
of this section, and, if such a finding is made
and supported by the record, propose specific
restrictions to the Congress; and
(E) develop
proposed
regulations
to
implement the methods and procedures that
the Commission determines are most

App-64
effective and efficient to accomplish the
purposes of this section.
(2) Regulations
Not later than 9 months after December 20, 1991,
the Commission shall conclude the rulemaking
proceeding initiated under paragraph (1) and shall
prescribe regulations to implement methods and
procedures for protecting the privacy rights described
in such paragraph in an efficient, effective, and
economic manner and without the imposition of any
additional charge to telephone subscribers.
(3) Use of database permitted
The regulations required by paragraph (2) may
require the establishment and operation of a single
national database to compile a list of telephone
numbers of residential subscribers who object to
receiving telephone solicitations, and to make that
compiled list and parts thereof available for purchase.
If the Commission determines to require such a
database, such regulations shall—
(A) specify a method by which the
Commission will select an entity to
administer such database;
(B) require each common carrier providing
telephone exchange service, in accordance
with
regulations
prescribed
by
the
Commission, to inform subscribers for
telephone exchange service of the opportunity
to provide notification, in accordance with
regulations
established
under
this
paragraph, that such subscriber objects to
receiving telephone solicitations;

App-65
(C) specify the methods by which each
telephone subscriber shall be informed, by
the common carrier that provides local
exchange service to that subscriber, of (i) the
subscriber’s right to give or revoke a
notification
of
an
objection
under
subparagraph (A), and (ii) the methods by
which such right may be exercised by the
subscriber;
(D) specify the methods by which such
objections shall be collected and added to the
database;
(E) prohibit any residential subscriber from
being charged for giving or revoking such
notification or for being included in a
database compiled under this section;
(F) prohibit any person from making or
transmitting a telephone solicitation to the
telephone number of any subscriber included
in such database;
(G) specify (i) the methods by which any
person desiring to make or transmit
telephone solicitations will obtain access to
the database, by area code or local exchange
prefix, as required to avoid calling the
telephone numbers of subscribers included in
such database; and (ii) the costs to be
recovered from such persons;
(H) specify the methods for recovering, from
persons accessing such database, the costs
involved in identifying, collecting, updating,
disseminating, and selling, and other
activities relating to, the operations of the

App-66
database that are incurred by the entities
carrying out those activities;
(I) specify the frequency with which such
database will be updated and specify the
method by which such updating will take
effect for purposes of compliance with the
regulations prescribed under this subsection;
(J) be designed to enable States to use the
database mechanism selected by the
Commission for purposes of administering or
enforcing State law;
(K) prohibit the use of such database for any
purpose other than compliance with the
requirements of this section and any such
State law and specify methods for protection
of the privacy rights of persons whose
numbers are included in such database; and
(L) require each common carrier providing
services to any person for the purpose of
making telephone solicitations to notify such
person of the requirements of this section and
the regulations thereunder.
(4) Considerations
database method

required

for

use

of

If the Commission determines to require the
database mechanism described in paragraph (3), the
Commission shall—
(A) in developing procedures for gaining
access to the database, consider the different
needs of telemarketers conducting business
on a national, regional, State, or local level;

App-67
(B) develop a fee schedule or price structure
for recouping the cost of such database that
recognizes such differences and—
(i) reflect the relative costs of providing
a national, regional, State, or local list of
phone numbers of subscribers who object
to receiving telephone solicitations;
(ii) reflect the relative costs of providing
such lists on paper or electronic media;
and
(iii) not place an unreasonable financial
burden on small businesses; and
(C) consider (i) whether the needs of
telemarketers operating on a local basis could
be met through special markings of area
white pages directories, and (ii) if such
directories are needed as an adjunct to
database lists prepared by area code and local
exchange prefix.
(5) Private right of action
A person who has received more than one
telephone call within any 12-month period by or on
behalf of the same entity in violation of the regulations
prescribed under this subsection may, if otherwise
permitted by the laws or rules of court of a State bring
in an appropriate court of that State—
(A) an action based on a violation of the
regulations prescribed under this subsection
to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive up to

App-68
$500 in damages for each such violation,
whichever is greater, or
(C) both such actions.
It shall be an affirmative defense in any action
brought under this paragraph that the defendant has
established and implemented, with due care,
reasonable practices and procedures to effectively
prevent telephone solicitations in violation of the
regulations prescribed under this subsection. If the
court finds that the defendant willfully or knowingly
violated the regulations prescribed under this
subsection, the court may, in its discretion, increase
the amount of the award to an amount equal to not
more than 3 times the amount available under
subparagraph (B) of this paragraph.
(6) Relation to subsection (b)
The provisions of this subsection shall not be
construed to permit a communication prohibited by
subsection (b) of this section.
(d) Technical and procedural standards
(1) Prohibition
It shall be unlawful for any person within the
United States—
(A) to initiate any communication using a
telephone facsimile machine, or to make any
telephone call using any automatic telephone
dialing system, that does not comply with the
technical
and
procedural
standards
prescribed under this subsection, or to use
any telephone facsimile machine or
automatic telephone dialing system in a

App-69
manner that does not comply with such
standards; or
(B) to use a computer or other electronic
device to send any message via a telephone
facsimile machine unless such person clearly
marks, in a margin at the top or bottom of
each transmitted page of the message or on
the first page of the transmission, the date
and time it is sent and an identification of the
business, other entity, or individual sending
the message and the telephone number of the
sending machine or of such business, other
entity, or individual.
(2) Telephone facsimile machines
The Commission shall revise the regulations
setting technical and procedural standards for
telephone facsimile machines to require that any such
machine which is manufactured after one year after
December 20, 1991, clearly marks, in a margin at the
top or bottom of each transmitted page or on the first
page of each transmission, the date and time sent, an
identification of the business, other entity, or
individual sending the message, and the telephone
number of the sending machine or of such business,
other entity, or individual.
(3) Artificial or prerecorded voice systems
The Commission shall prescribe technical and
procedural standards for systems that are used to
transmit any artificial or prerecorded voice message
via telephone. Such standards shall require that—
(A) all artificial or prerecorded telephone
messages (i) shall, at the beginning of the

App-70
message, state clearly the identity of the
business, individual, or other entity initiating
the call, and (ii) shall, during or after the
message, state clearly the telephone number
or address of such business, other entity, or
individual; and
(B) any such system will automatically
release the called party’s line within 5
seconds of the time notification is transmitted
to the system that the called party has hung
up, to allow the called party’s line to be used
to make or receive other calls.
(e) Prohibition on provision of
caller identification information

inaccurate

(1) In general
It shall be unlawful for any person within the
United
States,
in
connection
with
any
telecommunications service or IP-enabled voice
service, to cause any caller identification service to
knowingly transmit misleading or inaccurate caller
identification information with the intent to defraud,
cause harm, or wrongfully obtain anything of value,
unless such transmission is exempted pursuant to
paragraph (3)(B).
(2) Protection
for
blocking
identification information

caller

Nothing in this subsection may be construed to
prevent or restrict any person from blocking the
capability of any caller identification service to
transmit caller identification information.

App-71
(3) Regulations
(A) In general
Not later than 6 months after December 22, 2010,
the Commission shall prescribe regulations to
implement this subsection.
(B) Content of regulations
(i) In general
The regulations required under subparagraph (A)
shall include such exemptions from the prohibition
under paragraph (1) as the Commission determines is
appropriate.
(ii) Specific exemption for law
enforcement agencies or court
orders
The regulations required under subparagraph (A)
shall exempt from the prohibition under paragraph (1)
transmissions in connection with—
(I) any authorized activity of a law
enforcement agency; or
(II) a court order that specifically
authorizes the use of caller
identification manipulation.
(4) Repealed
Pub.L. 115-141, Div. P, Title IV, § 402(i)(3), Mar.
23, 2018, 132 Stat. 1089 (5)
Penalties
(A) Civil forfeiture
(i) In general
Any person that is determined by the
Commission, in accordance with paragraphs (3) and
(4) of section 503(b) of this title, to have violated this

App-72
subsection shall be liable to the United States for a
forfeiture penalty. A forfeiture penalty under this
paragraph shall be in addition to any other penalty
provided for by this chapter. The amount of the
forfeiture penalty determined under this paragraph
shall not exceed $10,000 for each violation, or 3 times
that amount for each day of a continuing violation,
except that the amount assessed for any continuing
violation shall not exceed a total of $1,000,000 for any
single act or failure to act.
(ii) Recovery
Any forfeiture penalty determined under clause
(i) shall be recoverable pursuant to section 504(a) of
this title.
(iii) Procedure
No forfeiture liability shall be determined under
clause (i) against any person unless such person
receives the notice required by section 503(b)(3) of this
title or section 503(b)(4) of this title.
(iv) 2-year statute of limitations
No forfeiture penalty shall be determined or
imposed against any person under clause (i) if the
violation charged occurred more than 2 years prior to
the date of issuance of the required notice or notice or
apparent liability.
(B) Criminal fine
Any person who willfully and knowingly violates
this subsection shall upon conviction thereof be fined
not more than $10,000 for each violation, or 3 times
that amount for each day of a continuing violation, in
lieu of the fine provided by section 501 of this title for
such a violation. This subparagraph does not

App-73
supersede the provisions of section 501 of this title
relating to imprisonment or the imposition of a
penalty of both fine and imprisonment.
(6) Enforcement by States
(A) In general
The chief legal officer of a State, or any other State
officer authorized by law to bring actions on behalf of
the residents of a State, may bring a civil action, as
parens patriae, on behalf of the residents of that State
in an appropriate district court of the United States to
enforce this subsection or to impose the civil penalties
for violation of this subsection, whenever the chief
legal officer or other State officer has reason to believe
that the interests of the residents of the State have
been or are being threatened or adversely affected by
a violation of this subsection or a regulation under this
subsection.
(B) Notice
The chief legal officer or other State officer shall
serve written notice on the Commission of any civil
action under subparagraph (A) prior to initiating such
civil action. The notice shall include a copy of the
complaint to be filed to initiate such civil action, except
that if it is not feasible for the State to provide such
prior notice, the State shall provide such notice
immediately upon instituting such civil action.
(C) Authority to intervene
Upon receiving the notice required by
subparagraph (B), the Commission shall have the
right—
(i) to intervene in the action;

App-74
(ii) upon so intervening, to be heard on
all matters arising therein; and
(iii) to file petitions for appeal.
(D) Construction
For purposes of bringing any civil action under
subparagraph (A), nothing in this paragraph shall
prevent the chief legal officer or other State officer
from exercising the powers conferred on that officer by
the laws of such State to conduct investigations or to
administer oaths or affirmations or to compel the
attendance of witnesses or the production of
documentary and other evidence.
(E) Venue; service or process
(i) Venue
An action brought under subparagraph (A) shall
be brought in a district court of the United States that
meets applicable requirements relating to venue
under section 1391 of title 28.
(ii) Service of process
In an action brought under subparagraph (A)—
(I) process may be served without
regard to the territorial limits of the
district or of the State in which the
action is instituted; and
(II) a person who participated in an
alleged violation that is being
litigated in the civil action may be
joined in the civil action without
regard to the residence of the person.

App-75
(7) Effect on other laws
This subsection does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United
States, a State, or a political subdivision of a State, or
of an intelligence agency of the United States.
(8) Definitions
For purposes of this subsection:
(A) Caller identification information
The term ‘‘caller identification information’’
means information provided by a caller identification
service regarding the telephone number of, or other
information regarding the origination of, a call made
using a telecommunications service or IP-enabled
voice service.
(B) Caller identification service
The term ‘‘caller identification service’’ means any
service or device designed to provide the user of the
service or device with the telephone number of, or
other information regarding the origination of, a call
made using a telecommunications service or IPenabled voice service. Such term includes automatic
number identification services.
(C) IP-enabled voice service
The term ‘‘IP-enabled voice service’’ has the
meaning given that term by section 9.3 of the
Commission’s regulations (47 C.F.R. 9.3), as those
regulations may be amended by the Commission from
time to time.

App-76
(9) Limitation
Notwithstanding any other provision of this
section, subsection (f) shall not apply to this
subsection or to the regulations under this subsection.
(f) Effect on State law
(1) State law not preempted
Except for the standards prescribed under
subsection (d) of this section and subject to paragraph
(2) of this subsection, nothing in this section or in the
regulations prescribed under this section shall
preempt any State law that imposes more restrictive
intrastate requirements or regulations on, or which
prohibits—
(A) the use of telephone facsimile machines or
other electronic devices to send unsolicited
advertisements;
(B) the use of automatic telephone dialing
systems;
(C) the use of artificial or prerecorded voice
messages; or
(D) the making of telephone solicitations.
(2) State use of databases
If, pursuant to subsection (c)(3) of this section, the
Commission requires the establishment of a single
national database of telephone numbers of subscribers
who object to receiving telephone solicitations, a State
or local authority may not, in its regulation of
telephone solicitations, require the use of any
database, list, or listing system that does not include
the part of such single national database that relates
to such State.

App-77
(g) Actions by States
(1) Authority of States
Whenever the attorney general of a State, or an
official or agency designated by a State, has reason to
believe that any person has engaged or is engaging in
a pattern or practice of telephone calls or other
transmissions to residents of that State in violation of
this section or the regulations prescribed under this
section, the State may bring a civil action on behalf of
its residents to enjoin such calls, an action to recover
for actual monetary loss or receive $500 in damages
for each violation, or both such actions. If the court
finds the defendant willfully or knowingly violated
such regulations, the court may, in its discretion,
increase the amount of the award to an amount equal
to not more than 3 times the amount available under
the preceding sentence.
(2) Exclusive jurisdiction of Federal courts
The district courts of the United States, the
United States courts of any territory, and the District
Court of the United States for the District of Columbia
shall have exclusive jurisdiction over all civil actions
brought under this subsection. Upon proper
application, such courts shall also have jurisdiction to
issue writs of mandamus, or orders affording like
relief, commanding the defendant to comply with the
provisions of this section or regulations prescribed
under this section, including the requirement that the
defendant take such action as is necessary to remove
the danger of such violation. Upon a proper showing,
a permanent or temporary injunction or restraining
order shall be granted without bond.

App-78
(3) Rights of Commission
The State shall serve prior written notice of any
such civil action upon the Commission and provide the
Commission with a copy of its complaint, except in any
case where such prior notice is not feasible, in which
case the State shall serve such notice immediately
upon instituting such action. The Commission shall
have the right (A) to intervene in the action, (B) upon
so intervening, to be heard on all matters arising
therein, and (C) to file petitions for appeal.
(4) Venue; service of process
Any civil action brought under this subsection in
a district court of the United States may be brought in
the district wherein the defendant is found or is an
inhabitant or transacts business or wherein the
violation occurred or is occurring, and process in such
cases may be served in any district in which the
defendant is an inhabitant or where the defendant
may be found.
(5) Investigatory powers
For purposes of bringing any civil action under
this subsection, nothing in this section shall prevent
the attorney general of a State, or an official or agency
designated by a State, from exercising the powers
conferred on the attorney general or such official by
the laws of such State to conduct investigations or to
administer oaths or affirmations or to compel the
attendance of witnesses or the production of
documentary and other evidence.
(6) Effect on State court proceedings
Nothing contained in this subsection shall be
construed to prohibit an authorized State official from

App-79
proceeding in State court on the basis of an alleged
violation of any general civil or criminal statute of
such State.
(7) Limitation
Whenever the Commission has instituted a civil
action for violation of regulations prescribed under
this section, no State may, during the pendency of
such action instituted by the Commission,
subsequently institute a civil action against any
defendant named in the Commission’s complaint for
any violation as alleged in the Commission’s
complaint.
(8) ‘‘Attorney general’’ defined
As used in this subsection, the term ‘‘attorney
general’’ means the chief legal officer of a State.
(h) Junk fax enforcement report
The Commission shall submit an annual report to
Congress regarding the enforcement during the past
year of the provisions of this section relating to
sending of unsolicited advertisements to telephone
facsimile machines, which report shall include—
(1) the number of complaints received by the
Commission during such year alleging that a
consumer received an unsolicited advertisement
via telephone facsimile machine in violation of the
Commission’s rules;
(2) the number of citations issued by the
Commission pursuant to section 503 of this title
during the year to enforce any law, regulation, or
policy relating to sending of unsolicited
advertisements to telephone facsimile machines;

App-80
(3) the number of notices of apparent liability
issued by the Commission pursuant to section 503
of this title during the year to enforce any law,
regulation, or policy relating to sending of
unsolicited advertisements to telephone facsimile
machines;
(4) for each notice referred to in paragraph (3)—
(A) the amount of the proposed forfeiture
penalty involved;
(B) the person to whom the notice was issued;
(C) the length of time between the date on
which the complaint was filed and the date on
which the notice was issued; and
(D) the status of the proceeding;
(5) the number of final orders imposing forfeiture
penalties issued pursuant to section 503 of this
title during the year to enforce any law,
regulation, or policy relating to sending of
unsolicited advertisements to telephone facsimile
machines;
(6) for each forfeiture order referred to in
paragraph (5)—
(A) the amount of the penalty imposed by the
order;
(B) the person to whom the order was issued;
(C) whether the forfeiture penalty has been
paid; and
(D) the amount paid;
(7) for each case in which a person has failed to
pay a forfeiture penalty imposed by such a final

App-81
order, whether the Commission referred such
matter for recovery of the penalty; and
(8) for each case in which the Commission referred
such an order for recovery—
(A) the number of days from the date the
Commission issued such order to the date of
such referral;
(B) whether an action has been commenced to
recover the penalty, and if so, the number of
days from the date the Commission referred
such order for recovery to the date of such
commencement; and
(C) whether the recovery action resulted in
collection of any amount, and if so, the
amount collected.

